No. 21-185
IN THE

Supreme Court of the United States
SCOTT SOLOMON,
v.

Petitioner,

AMERICAN FEDERATION OF STATE, COUNTY AND MUNICIPAL
EMPLOYEES, DISTRICT COUNCIL 37, AFL-CIO,
Respondent.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Second Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the
text and 10 point for the footnotes, and this brief contains 4,679 words, excluding the
parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 23, 2021.
/s/ Jacob Karabell
JACOB KARABELL
(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jkarabell@bredhoff.com
Counsel for Respondent

